C3

8X81

IN THE SUPREME COURT OF THE UNITED STATES

ORIGINAL

BRENT LANG - PETITIONER,

vs.
ERICA HU5S - RESPONDENT.
On Petitioner for Writ of Certiorari to the
United States Court of Appeals
For the Sixth Circuit
PETITIONER for writ of certiorari

BY:

Brant Lang #347208
Petitioner, in pro se
Marquette Branch Prison
1960 U.S Huy 41 South
Marquette, Michigan 49855

Petition perfected By; Troy Allen Hite #180655
(a non-attorney)

filed
MR 0 5 2021

1

1

QUESTION PRESENTED FDR REVIEW
I IS CERTIORARI APPROPRIATE WHERE THE UNITED STATES COURT OF APPEALS SHOULD HAVE
GRANTED A CERTIFICATE OF APPEALABILITY IN AT LEAST ONE OF THE QUESTIONS THAT WAS
PUT BEFORE THE COURT?

i

i

!•

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.

ii

TABLE OF CONTENTS

1

OPINIONS BELOW

2

STATEMENT OF JURISDICTION . .

CONSTITUTION AND STATUTORY PROVISIONS INVOLVED .

3

RELEVANT FACTS AND STATEMENT OF CASE
a Relevant Factds .............................
b. Statament of Ca3d ..........................

4
4
7

REASON FOR GRANTING THE WRIT.................. ................................................... ... ’ ' * * 11
CERTIORARI IS APPROPRIATE WHERE THE UNITED STATE5 COURT OF APPEALS SHuULD hAVE
GRANTED A CERTIFICATE OF APPEALABILITY IN AT LEAST ONE OF THE QUESTIONS THAT WAS
11
PUT BEFORE THE COURT
.11
a. Introduction
11
b. Discussion . . .
11
. . . .
Question I
.
.
16
Questions II ... .
18
Question III . . . .
25
Question IV ... .
30
Question V
. . . .
32
Question VI ... .
34

CONCLUSION

iii

INDEX OF APPENDICES
Appendices:
A - People v

Lang, 2014 Mich. App. LEXIS 123 (Mich Ct. App. 3an. 23, 2014)

B - People v. Lang, 497 Mich. 869 (2014)
C - Lang v. Trierweiler, 2015 US

Dist. LEXIS

(W.D. Mich. Aug. 6, 2015)

D - Wayne County Circuit Court Denial
E - People v. Lang, 500 Mich. 1001 (2017)
F - Lang v. Mackie, 2020 US. Dist. LEXIS ___ (E.D. Mich. July 8

2020)

G - Lang v. Huss, 2020 U.S. Ct. of App. LEXIS ___ (6th Cir. Ct. of App
2020)
H - Relevant Trial Transcripts
Volumes I and II, 07/23/12 and 07/24/12
I - Relevant Sentencing transcripts
Volume III, 08/07/12

iv

Dec. 0.

INDEX OF AUTHORITY
Cases:

Page Numbers:

Barefoot v. Estelle, 643 U.S. 480, 493 (1983)

passim

Barker v. Yukina, 199 F.3d 867, 875-876 (6th Cir. 1999)

17

Brown v. Smith, 551 F.3d 424, 434-435 (6th Cir. 2008) ,

32

Bullcoming v. United States, 174 U.S. 47 (1099) .

26

Burger v. United Statas, 295 U.S. 78, 88-89 (1935) . .

10

Carpenter v. Mohr, 164 F.3(tf938, 947 (6th Cir. 199B) .

33

Combs v. Coyle, 205 F.3d 269 (6th Cir. 2000) ...............

23

Crawford v. Washington, 541 U.S. 35, 51 (2004)

2526, 28

Donnelly v. DeChristoforo, 415 U.S. 637, 643 (1974)

18

Drops v. Missouri, 420 U.S. 162, 171 (1975)

31

Evltts v. Lucsy, 496 U.S

32

37B, 391-400 (1984)

Ferensic v. Birkett, 501 F.3d 469, 482-4B3 (6th Cir. 2G07)
Hodga v. Hasberlin, 579 F 3d 627, 655 (6th Cir. 2009)
Hodga v. Hurley, 426 F.3d 368, 378 (6th Cir. 2005)

12, 19
22
19, 20, 21, 23

Howard v. Borchard, 405 F,3d 459, 485 (6th Cir. 2005)

33

Hubert v. Louisiana, 272 U.S. 312, 316 (1929)

21

Hutchison v. Ball

21

303 F.3d 720, 750 (6th Cir. 2002)

In re Winship, 397 U.S. 35B, 364 (1970)
Irvin v. Dowd, 366 U 5
Oackson v
Sanaa v

16, 17

717, 729 (1961 )

Virginia, 443 U.S

16

307, 317 (1979)

Barnes, 463 U S. 745, 754 (1983)

16, 17
32

Keene v. Mitchell, 524 F 3d 461, 465 (2008)

14

Kincada v. Sparkman, 175 F 3d 444, 446 (6th Cir. 1999)

16

Ki.by v. United States, 174 U S

26

47 (1899) ..................

Lang v. Huas, 2020 U.S. Ct. App. LEXIS ___ (6th Cir. Ct. of App. Dec. 8, 2020).*,^

V

Lang v. Hackle, 2020 U.5. Diat. LEXIS

(E D

Lang v. Trlaruieiler, 2015 U.S. Hist. LEXIS

Mich. july 8, 2020)

(W.D, Mich. Aug. 6, 2015) ,.1,7

Meads v. Lavlgns, 265 F. Supp, 2d 849, 870 (ED. Mich. 2003)
Melandez-Diaz v. Massachusetts, 557 U.S- 306, 313 (2009)
Neil v. Biggers, 409 U.S

...1,3

32
25, 28

108, 199-200 (1972) .

14

Payton v. Brigano, 256 F 3d 405 (6th CIr. 2001)

11

People v. Lang, 2014 Mich. App. LEXIS 123 (Mich. Ct. App. 3an. 23, 2014) .. 1,7
People v. Lang, 497 Mich. G69 (2014)

1, 7

People v. Lang, unpublished COA. 333444 (Mich. Ct. of App. Sept. 23, 2016) .1,9
Paopls v. Lang, 500 Mich. 1001 (2017)

1, 9

Richardson v. Marsh, 481 U,3. 200, 211 (1987)

18

Riggins v. nsvada, 504 U.S. 127 (1392)

30

Sell v. United States, 539 LL E. 166 (2005)

30

Smit, v. Murray, 477 U.S

32

527, 536 (1986)

Strickland v. Washington, 466 US. 668 (1984)
United States v. Latter, 254 F. Supp. 2d 602, 613 (D. Ua. 2003)
United States v. Young, 470 U.S
U S. v. blade, 3B8 U 5

1, 18 (1905)

218, 228 (1967)

22, 23, 32
12
19, 21
12

Washington v. Harper, 494 U.S, 210 (1990)

30

Watkins v. Sawder, 449 US. 341, 352 (1981) .

13

Uellons v. Hall, 130 5

Ct. 727 (2010) ........

23

White v. McAninch, 235 F 3d 908, 995 (6th Cir. 2002) .

22

Constitutions;
US. Constitution Amendment VI

passim

U S. Constitution Amendment XIV

.passim

Statutes
Mich. Comp. Laws § 750.83 .

4

Mich. Comp. Laws § 750.224f

4
Vi

Mich. Comp, laua § 750.227b-s

4

Mich. Comp, Laws § 750.317 .

4

28 L).5 C.A. § 2254(c)

11

vif

QPIHI0N5 BELOW
The January 23, 2014, order of the Michigan Court of Appeals denying the
appeal by right, an unpublished opinion. (See Appendix A, People v. Lang, 2014
Mich. A^p. LEXIS 123 (Mich. Ct. App. Jan. 23, 2014)). The September 29, 2014
Michigan Supreme Court denial. (See Appendix B, People v. Lang, 497 Mich. 869
(2014)). The July 27, 2015, United States Western District Court dismissal. (See
Appendix C, Lang v. Trierweiler, 2015 U.S. Dist. LEXIS

(W.D. Mich. Aug. 6,

2015)).The Motion for Relief from Judgment, pursuant to Mich. Ct. R. 6.500, et
seq, denial by the Honorable Dana M. Hathaway. (Sea Appendix D, Wayne County
Circuit Court Denial). The September 22, 2016 Michigan Court of Appeals denial.
(See People v. Lang, unpublished opinion, COA

333444 (Mich Ct. App. Sept. 23,

2016)). The Michigan Supreme Court denial. (See Appendix E, People v. Lang, 500
Mich. 1001 (2017)). The July 8, 2020 denial of the United States Eastar.District
Court. (See Appendix F, Lang v. Mackis, 2020 U.S. Dist. LEXIS

(E.D. Mich.

July 8, 2020)). The December 8, 2020, United States Court of Appeals for the
Sixth Circuit denial. (5ee Appendix G, Lang v. Huss, 2020 U.S. Ct. App. LEXIS
(6th Gir. Ct. of App. Dec. 8, 2020)).

.1

!

H
STATEMENT OF JURISDICTION
Petitioner seeks review of the December B, 2020, denial of the United
States Court of Appeals for the 5ixth Circuit. This Court has jurisdiction where
Petitioner is filing this petition within 90 days of the denial.

%

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
a. Constitutional Provisions:
United States Constitution - Sixth Amendment:
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district wherein the crime
shall have been committed, which district shall have been previously ascertained
by law, and to be informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to lave the Assistance of Counsel for his
defense.
United States Constitution - Fourteenth Amendment:
Sec. 1. All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein
they reside. No State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the laws.

c

3

RELEVANT FACTS AND STATEMENT OF CASE
a. Relevant Facts:
On July 24, 2012, Brent Lang, Petitioner in pro se, bias convicted, after a
trial by jury, of Murder, Second Degree, contrary to Mich. Comp. Laws § 750.317;
Assault With Intent to Commit Murder, contrary to Mich. Comp. Laws § 750.03;
Felon in Possession of a Firearm, contrary to Mich. Comp. Laws § 75Q.224f; and
Felony Firearm, contrary to Mich. Comp. Laws § 750.227b-a, in the County of
Wayne, before the Honorable Gregory Bill. (T 07/24/12, 56-57).
On August 7, 2D12, Petitioner was sentenced to serve concurrent sentences
of 35 years 5 months to 60 years; 270 months to 35 years; 5 years; and 5
consecutive years. (ST 00/07/12).
The case arose from a shooting incident occurring on September 21, 2011, at
an abandoned house at 563 Rosedale, in the City of Detroit, where James Watson
was killed and Angelo 3ames was wounded in the shooting. The later subsequently
testified at trial.
James testified that he was on the porch at the abandoned house with Watson
and Courtney Putman on the evening of September 21, 2011. (T 07/23/12, 7). The
house has no electricity and there were no lights on at the house or at the
houses on either side of it; though there was a porch light on at a house across
the street, two houses down; and there was a street light on that was also down
the street from them. (ID. 23-24, 37-38). James was drinking Cognac; the others
were not drinking; Watson smoked and sold marijuana from the location and other
locations. (ID. 89, 36).
James stated at about 11:00 pm., Petitioner, wearing all black clothing
and a pulled-up hoodie, rode by on a black bicycle with silver spokes. He did not
stop, but looked at James and continued riding. James didn’t know Petitioner, but
had seen him around the neighborhood over a period of six years. (ID. 11, 13 15,

4

38). Dames had never spoken with Petitioner and he had no problems with him. (ID.
38-39). Dames said he then went to a store with Watson and returned to the house
to hang out on the porch. (ID. 8, 13).
At around 1:00 a.m., after a second trip to the store,

Dames saw a

different person, (TeTe), riding the same bike. TeTe mas dressed all in black and
also wore a hoodie. (ID. 40)

TeTe rode up and spoke with Dames for awhile, and

then left, (ID. 16-17). Dames and Watson continued sitting there. Later in the
evening Dames heard a noise in the bushes or grass at the house next door; he
stood up and saw two people, one of whom hB identified as Petitioner, point guns
and say "Don't move." (ID. 18-19, 45). Although Dames testified at trial that he
was sure Petitioner was one of the two people, (ID. 35), and he knows Petitioner
when he sees him, (ID. 24), he acknowledged that he, in his statement to the
police, said he only got a "glimpse" of him. (iD. 25-26).
Dames stated he turned and started to run inside the house and he heard
several gunshots • he realized he had been shot in the leg, and could not keep
running because the leg was broken, so he sat down inside the house; he later
realized he also sustained a wound in his arm. (ID. 28-29). He said he heard
three or four more gunshots and Watson walked into the house, but because it was
dark inside of the house, he could not tell Watson was bleeding, but he did hear
Watson gasping for air. Dames tried to stand, but both Watson and him collapsed
to the floor.- (ID. 29-30). Around thirty seconds transpired from when Dames
noticed the two individuals and Watson coming into the house. (ID. 30, 46).
Putman and his brother came to the house and helped Dames to his car; while
in route to the hospital, they saw an ambulance, so they stopped and Dames was
placed in the care of the EMS personnel. (ID. 32-33).
Dames stated he knew that Watson possessed a .357 handgun, but he did not
see Watson pull it out that night. (ID

43-44, 46).

5

Putman testified that he was inside the abandoned house with the others at
about 11:00 p.m. He later went to the store with Oames at around 1:00 a.m. and
then went to his home across the street- He sat down and started eating some food
and heard six to seven gunshots. (ID. 94-96). Putman said he tried calling Oames
and could hear Oames's phone, and then heard Oames call for him. (ID. 96, 98). He
looked at the house and could see Oames crawling through the door. His brother
and him then put Oames into his car and Putman started driving to the hospital,
but when he saw the police and EMS, he stopped the car and told them where Watson
was. (ID. 103-106)
Putman asked 0ams3 whom had shot him and Oames replied ’Englewood. ’ (ID.
108-109) .
Police Officer, Allen Williams, testified that he responded to the house at
about 2: 10 a.m. (ID. 70). There was no power to the house. He found bags of
marijuana inside the walls of the house; a handgun
revolver,

either a

.38 or

.357

he couldn't recall which, wa3 found on the front porch. Oames's

identification was found in the area of the handgun. Some shell-casings, soma of
which appeared to be old and same new, were found in the sidewalk area. (ID. 6970, 73-74).
Evidence Tech, Lori Briggs, testified that the revolver found on the porch
was a Taurus .357

(ID. 118). Shell-casing3 were found on the sidewalk and the

street area next-door to the abandoned house. (ID. 116-117).
Sgt. Samuel Mackie testified that the revolver was not submitted for either
fingerprints or DMA testing. (ID 129, 131).
Toolmark expert, Oeffrey Amley, testified three of the casings found were
from a .45 caliber gun and one from a 9 mm handgun. (ID. 78-80- 86, 90). A fired
bullet, which had been recovered from Watson's body, had been fired from the
Taurus .357; also the Taurus was a five shot weapon with four live cartridges and

(o

□ns fired case. (ID. 78-80

91). A potion of a bullet recovered from the scene

was consistent with being either a .38, .357, or 9 mm. (ID. 84).
Assistant Medical Examiner, Dr

Francisco Diaz, testified that Watson died

from two gunshot wounds, one of which was in the posterior of the right lower
leg, the other to the right side of the chest, which caused damage to the lungs
and aorta. (ID

61-63).

Any further facts will be included within each argument being presented to
this Court.
b. Statement of Case:
At sentencing, Petitioner filed a timely notice of appeal of right to the
Michigan Court of Appeals and a request for the appointment of appellate counsel.
Appellate counsel,

Neil 3

Leithauser

(P33976),

was appointed to represent

Petitioner. Leithauser raised three questions on the appeal: (1) Does the weight
of the evidence so preponderate against the verdict - based upon an incredible
identification of Petitioner - that Due process of law is offended and should the
verdict not be allowed to stand and should Petitioner be given a new trial? (2)
5hould the murder conviction be reversed where the prosecutor's evidence was
insufficient to prove beyond a reasonable doubt that Petitioner killed the
decedent? and (3) Was Petitioner denied his state and federal constitutional
rights to confrontation, due process of law and a fair trial - guaranteed through
the Sixth and Fourteenth Amendments - through: a. Misconduct of the prosecutor,
which

consisted

of

arguments

improperly

bolstering

the

character

of

the

complaining witness; and b. Trial counsel's failure to object deprived Petitioner
of his Sixth Amendment right to the effective assistance of counsel?
Dn January 23, 2014, the Michigan Court of Appeals, in an unpublished
opinion, affirmed Petitioner*3 conviction and sentence. (See Appendix A, People
v. Lang, 2014 Mich. App. LEXIS 123 (Mich

7

Ct. App. 3an. 23, 2014)).

Petitioner appealed the same three questions to the Michigan Supreme Court,
which the court denied leave to appeal on September 29, 2014. (See Appendix B;
People v. Lang, 497 Mich. 869 (2014)).
On July 27, 2015

Petitioner filed a timely writ of habeas corpus, which

was docketed as case number 15-cv-00771. The case was summarily dismissed,
without prejudice, due to Petitioner's failure to exhaust all claims that he was
presenting.

(See Appendix C, Lang v

Trierweiler, 2015 U.S. Dist. LEXIS

(W.D. Mich. Aug. 6. 2015)).
To comply with the court's order to exhaust the additional claims in the
state courts, Petitioner filed a Motion for Relief from Judgment, pursuant to
Mich Ct. R. 6500, et seq, within the blayne County Circuit Court, raising an
additional 5 questions

(1) Was Petitioner deprived his constitutional right to a

fair and impartial trial, where the prosecutor knowingly presented Dr. Francisco
Diez to provide an opinion and conclusion as to ths autopsy performed by Dr.
Somerset, which Dr

Diez did not attend? (2) Did the prosecutor commit a Brady

violation, contrary to Petitioner's Fifth and Fourteenth Amendment rights, where
it knowingly withheld exculpatory evidence, regarding the bullet(s) recovered
during ths autopsy performed by Dr

Somerset? (3) Was Petitioner denied a fair

and impartial trial by the prosecutor knowingly suppressing the gunshot residue,
fingerprint evidence,

and bullet casing taken from the

decedent?

(4)

lil as

Petitioner deprived of a fair and impartial trial as guaranteed by the Sixth and
Fourteenth Amendments, where the trial court placed an ''external constrain" upon
his ability to aid in his own defense, by ordering Petitioner competent wit

t.

antipsychotic medications during trial court proceedings? and (5) Was petitioner
denied his constitutional right to the effective assistance of counsel, where
appellate counsel failed to raise the ineffectiveness of trial counsel,

in

conjunction to the issues raised herein, as-well-as, those articulated within

2

counsel’s appeal to the Michigan Court of Appeals?
The Honorable Dana M. Hathaway, denied Petitioner Motion for Relief from
Judgment. (See Appendix D. Wayne County Circuit Court Denial).
Petitioner then filed a timely application for leave to appeal to the
Michigan Court, of Appeals, which was denied on September 22s 2016. (See People v.
Lang, (unpublished opinion) COA: 333444 (Mich Ct. App. Sept. 23, 2016)).
Petitioner filed for a leave to appeal within the Michigan Supreme Court
challenging the lower courts denials. The Michigan Supreme Court denied leave to
appeal pursuant to Mich. Ct. R, 6 508(D). (See Appendix E, People v. Lang, 500
Mich. 1001 (2017)) .
Petitioner then re-filed a writ of habeas carpus presented all eight
exhausted claims to the Federal Easter District Court, case number 17-cv-11975.
On July 8, 2020, the District Court denied the petition and declined to
issue a certificate of appeal on any of the claims, though it did grant an
informa pauperis to appeal. (See Appendix F, Lang v. Mackie. 2020 U S. Dist.
LEXIS

(E.D. Mich. July 8, 2020)).
Petitioner

appealed

the District

Court's denial

of a

Certificate of

Appealability to tha United States Court of Appeals for the Sixth Circuit, and
argued

an

additional

question

of:

Was

Petitioner’s

questions

4-7

never

adjudicated on the merits because there was never cited any supporting authority.
only conclusory arguments in the denial? case number 20-1765.
On December B

2020, the Court upheld the District Court's determined and

denied Petitioner a Certificate Df Appeal on any of the claims presented. (See
Appendix G, Lang v. Huss

2020 U.S. Ct. App. LEXIS

(6th Cir. Ct, of App.

Dec. 8, 2020)).
Petitioner is now before thi3 Court raising the question as to whether he
should

have

been

granted

a

Certificate

9

of

Appealability,

presenting

the

information for six of the nine questions presented to the U.S

Court of Appeals

on why he should have been granted it. Petitioner, after reviewing the lower
court claims, has decided to eliminate claims One. Six, and Seven from this
petition where these arguments are not strong enough to present to this Court.

10

REASONS FOR GRANTING THE WRIT
CERIORARI IS APPROPRIATE WHERE THE UNITED 5TATES COURT OF
APPEALS SHOULD HAVE GRANTED A CERTIFICATE DF APPEALABILITY IN
AT LEAST ONE OF THE QUESTIONS THAT WAS PUT BEFORE THE COURT.
a. Introduction:
This case embodies a precise question that needs to be addressed where
Petitioner was denied his United States Constitutional rights under the Sixth and
Fourteenth Amendments in denying him a Certificate of Appealability for at least
one of the claims that was presented to the United States Eastern District Court.
b

Discussion:
A petitioner is entitled to s certificate of appealability if he makss a
substantial showing of the denial of a constitutional right.

2254(c)

28 U.S.C. §

This Court held in Barefoot v. Estelle, 463 U S. 480, 493 (1983), that

this means that the petitioner need not show that he would prevail on the merits,
but must 'demonstrate that the issues are debatable among jurists of reason" that
this Court court resolve the issues

[in a different manner]; or that the

questions are '‘adequate to deserve encouragement to proceed further
Specifically, a petitioner must show that jurist would find it debatable
(1) whether the petition states a valid claim of denial of a constitutional right
and (2) whether the district court w is correct in its procedural ruling. Payton
v. Brigano, 256 F 3d 405 (6th Cir. 2DD1).
QUESTION I
DID THE WEIGHT OF THE EVIDENCE SO PREPONDERATE AGAINST
VERDICT - BASED UPON AN INCREDIBLE IDENTIFICATION
PETITIONER
IS DUE PROCESS OF LAW OFFENDED, SHOULD
VERDICT BE ALLOWED TO STAND, AND SHOULD A NEW TRIAL
ORDERED FOR PETITIONER?

THE
OF
THE
BE

The shooting incident lasted, according to 3ames, only about twenty or
thirty seconds from the time that he saw the two people outside, stood and
entered the house and the fatally injured Watson followed him inside.
07/23/12, 46)

(T

In that time frame, he heard multiple gunshots, starting first as

11

he entered the door, and then three or four additional shots ware heard once he
was inside.

(ID 28-29). Putman heard six or seven gunshots, but saw no one

outside when he subsequently looked out. (ID 95-96).
Before the shots were fired, Dames saw two people by the house next door.
The people were in an unlit area and it was after 1 :0D a m., yet he claimed that
one of the persons was Petitioner.

(ID 1'9). He also claimed to have seen

Petitioner hours earlier riding a bicycle and wearing a hoodie pulled up
13)

(ID 12-

Tha lighting was bad, at best, on that dark night for the only lights were a

porch light on a house on the otherside of the street and a street light, also
down in that sams area; neither house on either side of the abandoned house at
563 Rosedale, which had no electricity

had any light on. (ID 23-24, 37). He did

not personally know Petitioner and had only seen him around, nor had hs ever
spoken with him face to face. (ID 15).
Simply put,

the conditions for making a reliable identification were

absent, at best.
Further, at the time he admitted to the police that he only
person

glimpsed

the

(ID 25-26). He also spent time to focus enough attention to describe the

guns carried as being "shiny/ (ID 45-46). However, he did not see bJatson pull a
gun (ID 46). A victim's attention upon a weapon, i.e . "weapon focus*', has been
scientifically

recognized

and

described as

referring to

"the eyewitness's

tendency to focus his or her visual attention on the weapon. When an eyewitness
does this, the eyewitness has less attention to focus on a perpetrator's facial
or physical characteristics/' United States v. Lester, 254 F_.Supp.2d 602, 613 (D.
va
US.

2003)
v

This is even more true when the only witness is a complete stranger
Dade,

388

U.S.

218.

228

(1967).

The

vageries

of

eyewitness

identification are well know; the annals of criminal law are rife with instances
of mistaken identification.

ID at 228

IX

Also see Ferensic v. Birkett, 501. F 3d

469, 4B2-4B3 (6th Cir. 2007).
In the seconds surrounding the incident, Watson apparently sustained his
wound from his own ,357 revolver; the gun was found by police on the porch, near
Games’s identification. (ID 69, 73, 78 BO

91, 11B). The casings found at the

scene actually shed minimal light on the esse, for, apparently
and new casings found by police, (ID 74-75)

there were old

Among those taken into evidence were

three .45 caliber casings, a 9 mm casing, and a fired ,357 casing

(ID 70-80)

Games’s explanation of the events does not explain, nor does it coincide
with, the physical evidence. How did his identification and Watson's gun, which
had been fired and Watson was shot with, end up in the same area on the porch?
How did Watson get shot, and much more significantly, whom was he shot by? Also,
if Petitioner and another person were committing an armed robbery, why would they
have left the .357 and all other items untouched?
That is, if Games was correct that the perpetrator(s) had shiny guns, and
if we are to infer that those guns were a .45 and a 9 mm* and the perpetrators
were next door when the shots were fired, how did Watson sustain a fatal .357
wound whila on the porch, where the

.357 was subsequently found? In short.

Gamasls version is mistaken, untruthful, and incomplete, thus not reliable
It is noteworthy that when asked by Putman who shot him, Games did not say
Lang; instead, he said "Englewood*1' (ID 108-109)

Games also did not tell police

who shot him until sometime after he had surgery on his leg

(ID t4)

He also did

not tell Officer Przybyla who did it* (ID 125-126)
This

Court

has

recognized "the

difficulties

inherent

identification testimony during stressful events." In Watkins v

in

eyewitness

Sowders, 449 U.S.

341 , 352 (1981), It held:
much eyewitness
[Dlespite its inherent unreliability
identification evidence has a powerful impact on juries.
Guries seem most receptive to, and not inclined to discredit,
testimony of a witness who states that he saw the defendant

commit the crime.
The Federal Standard of in-court identification is a 5 part teat. See Neil
v

Biggers, 409 U S

180, 199-200 (1972)

Also see Keene v. Mitchell, 524 F.3d

461, 465 (2008); explaining the 5 part test:
First, we consider the opportunity of the witness to view the
defendant at the initial observation, second, we consider the
witness's degree of attention, third we consider the accuracy
of the witness’s prior description of the defendant, fourth
we consider the level of certainty shown by the witness at
the pretrial identification, and finally we consider the
length of time between the initial observation and the
identification. We must weigh these factors against the
corrupting influence of -the suggestive identification,
(citations omitted).
First, the opportunity to observe the perpetrator was very limited. James has a
glimpse of two people under very dark conditions from one yard to the next. (ID
23-26, 27), Further, he is basing the identification because of a dark hoodie
sweet shirt, which he identified another person wearing that night. (ID 11, 40).
Which is not surprising to see people in a black neighborhood wearing dark hoodie
sweet shirts

Second, James's degree of attention was extremely short where he

had time to glimpse two people,

see two shiny guns and run into the dark

abandoned house. The entire incident only took 20 to 30 seconds, which includes 4
or 5 gunshots after he is in the house and Watson. finally stumbling into the
house shot. (ID 29-30 46). Third, thare was no prior description of the shooter.
(ID 10B-109). Fourth. James told a neutral person, his friend Putman, that the
shooter was

tnglewonri,

(ID 108 109) ,

if he would have known that it was

Petitioner he would have told his close friend thi3 information. Fifth, James
only said it was Petitioner after his surgery. (ID 34). This is important because
as clearly indicated
the alcohol

James was drinking that night, so his mind was foggy from

and then he gets shot and goes into surgery and is injected with

drugs that mix with the alcohol. This creates an event to imprint a persons face
into the perpetrators dark hoodie in a dark area where no face could have been

1*

J

seen.
Petitioner i3 innocent of the crime and the misleading identification has
violated his constitutional right
debate this fact

to

due process and jurors of reason could

Because of the forgoing, a certificate of appealability should

have been granted.

is

#

QUESTION II
MUST THE MURDER CONVICTION BE REVERSED WHERE THE PROSECUTORS
EVIDENCE WAS INSUFFICIENT TO PROVE BEYOND A REASONABLE' DOUBT
THAT PETITIONER KILLED THE DECEDENT?
All elements must be proven beyond a reasonable doubt for there to be a
valid conviction. In re Winship, 397 U.S. 358, 364 (1970); Jackson v. Virginia,
943 U.S. 307, 317 (1979) .
The prosecutor’s burden Is to "establish guilt solely on the basis of
evidence produced in court and under circumstances assuring an accused all the
safeguards of a fair procedure."

Irvin v.

Dowd

366 U.S.

717,

729

(1961)

(Frankfurter, J , concurring)As noted above in Question I, supra, Watson was shot, and potentially
killed, by a .357 Taurus revolver, his own .357. The casings submitted at trial
were .357, .45 and 9 mm, the later were found on the street and sidewalk areas,
where there were old and "fresh'- casings. (T 07/23/12, 74-75, 79-BO).
If the two men fired weapons from the area of the house next door, or the
sidewalk,

they did not fire a

.357,

Someone killed Watson,

certainly and

tragically; however, it doBs not appear to have been one of the two persons said
by James to have been outside and next door, (ID 1:8-19), which if true, would
justify why when Putman looked out he did not see anyone around the house. (ID
95-96): Yet, Putman testified that he could see James crawling through tha door.
(ID 103-104). There is no direct proof in this record that Petitioner fired any
gunshots, and there is no inferential proof that he fired the fatal shot, though
there is proof that James's identification card was found next to the .357, (ID
69-70

73-74), and there is proof that Watson sold drugs at different locations

in the city. (ID 8-9, 36). The alleged perpetrators did not rob the victim, for
they surely would have taken the .357 with them and any other items of value,
thus, if they did the shooting, what would have motivated them to do it? James
was clearly aware of the money Watson was making from drug sells, but nothing

u

.V -

>

indicates that Petitioner was aware of this, where there was not a robbery made.
Further, because the doctor that did the autopsy did not testify

see Question

IV, infra, it cannot be stated as absolute that Watson did not die from the .357
gunshot wound.
The proofs were deficient to

support a murder conviction,

and that

conviction must be vacated. U S. Constitution Amendment XIV; Winship, 397 U.S. at
364; Jackson, 44-3 U.S. at 317. Further, Petitioner would direct this Court to
consider the fact that the Michigan Court of Appeals usurped ths jury when it
determined: “From Watson's leg wound, they extracted a fired bullet jacket and
one core portion of the jacketed bullet. The bullet to his chest perforated his
aorta, which was enough to kill him.'1 (Exhibit A). Then, the U.S. District court
went on to usurp the jury's roll further and violated the Sixth Circuit's ruling
in Barker v. Yukins, 199 F.3d B67, 875-876 (6th Cir. 1999), where that Court
found

the court’s evaluation of conflicting evidence, ’usurpCs] ... the jury’s

factfinding role.’
Petitioner is innocent of the crime where there is insufficient evidence to
support such a conviction and the lower court’s usurped the jury's roll to insure
the conviction stood, thus a certificate of appealability should have been
granted where jurists of reason could have debated this fact and the question is
adequate to deserve encouragement to proceed further. Barefoot, 463 U.S. at 493.

17

QUESTION III
WAS PETITIONER DENIED HIS STATE AND FEDERAL CONSTITUTIONAL
RIGHTS TO CONFRONTATION, DUE PROCESS OF LAW AND A FAIR TRIAL,
GUARANTEED HIM THROUGH THE SIXTH AND FOURTEENTH AMENDMENTS OF
THE U.S. CONSTITUTION - THROUGH
1 Misconduct of the prosecutor, which consisted of arguments
improperly bolstering the character of the complaining
witness; and
2. Trial counsel’s failure to object, which deprived
Petitioner of his Sixth Amendment right to the effective
assistance of counsel?
1 . Prosecutorial Misconduct:
Reversal is warranted when prosecutorial misconduct denied the accused the
right to a fair trial guaranteed by the Due Process Clause of the Federal
Constitution, Amendment Fourteen; Burger v. United States, 295 U.S. 78, 88-89
(1935);

Donnelly v.

DeChristoforo,

415 U.S.

637

643

(1974).

Further,

the

misrepresentation of facts/evidence can amount to substantial error because doing
so “may profoundly impress a jury and may have a significant impact on the jury's
deliberations.** Kinbade v. Sparkman, 175 F.3d 444, 446 (6th Cir. 1999)., This is
particularly true in the case of prosecutorial misrepresentation because a jury
generally

has

confidence

that

the

prosecutor

is

faithfully, observing

his

obligation as a representative of the People, whose interest “in a criminal
prosecution is not that it shall win a case, but that justice will be done.'*
Burger, 295 U S. at 88.
Since the case Richardson v. Marsh, 481 U.S. 2DD, 211 (1987) came into
being, the term “juries are presumed to follow their instructions" ID. is always
referenced as a way to eliminate prejudice that a prosecutor knowingly injects
into a defendant s trial to gain an upper hand, or rather, an unfair advantage in
the case, such as in Petitioner's case. But, what court's have failed to look at
is the entire statement made by this Court:
The rule that juries are presumed to follow their
instructions is a pragmatic one Rooted less in the absolute

1%

certitude that the presumption is true then in the belief
that it represents a reasonable practical accommodation of
the interest of the state and the defendant in the criminal
justice process. ID at 211.
Petitioner stated that this terminology is only a "practical accommodation
of the interest of the state" ID, and not a defendant accommodation or interest,
unless ha clearly and openly agrees to it- For something that directly effects a
defendant's constitutional rights can only be waived by him wham's rights are
being violated. The accommodation factor is to allow a criminal defendant to make
the choice to accept or deny the violation to a fair trial by the prosecutor, not
as an all correcting/curing factor for denying a defendant his right to a fair
trial, as the state courts end the state prosecutorial system have been using it.
For, such as vouching for a witness, for arguendo, if counsel would have objected
and requested a curative instruction

then the "jury [would have] explicitly

[been] instructed, as it always is, that arguments by counsel are not evidence.''
Ferensic v. Birkett, 501 F. 3d 469, 477 (6th Cir. 2007).

This would not have

eliminated the intentional injection of swaying the jury’s outlook on looking at
the witness with additional credibility'then the evidence would have allowed, for
once ix is heard it cannot be unheard; but it is a way of white-washing a
defendant’3 constitutional rights to a fair trial and making tham look minor and
unwarranted for an appellate court’s attention.
As stated in Hodge v. Hurley, 426 F 3d 368, 378 (6th Cir. 2005) (citing
United States v. Young, 470 US

1, 18 (1985))i.

[Tjhere are two separate harms that arise from such
misconduct. First, such comments convey the impression that
but known to the
evidence not presented to the jury
prosecutor, supports the charges against the defendant and
can thus jeopardize the defendant’s right to be trial solely
on the basis of the evidence presented to the jury. Second,
the prosecutor's opinion carries with it the imprimatur of
the Government and may induce the jury to trust the
Government's judgment rather than its own view of the
evidence, (internal citations and quotations omitted).

In Hodge, the court found prejudice because there was little physical
evidence and the result of the trial turned on who the jury believed. In such a
situation, held the court, bolstering a prosecution witness's testimony "is
particularly likely to affect the jury’s verdict.1* ID at 387.
It is more than fair to say that the only evidence against Petitioner was
the testimony of James, who had drunk at least a pint of Cognac before the
shooting, (ID 8-9) , who had, as he told police, only "glimpsed" the two man in
the dark at the house next door, (ID 25-26), who had never had any interactions
with Petitioner in the past, (ID T5, 38-39^, and only picks Petitioner after he
was injected with pain killers for surgery, which created an event to imprint a
persons face into the perpetrators dark hoodie in a dark area where no face could
have been seen. (ID 34).
Further, James admitted that blatson sold drugs from that abandoned house
and from other places in the city

thus, he was hanging out with a known drug

dealer, who probably possessed quantities of money. (ID 36; T 07/24/12, 18),
The

prosecutor spoke very highly of James in the closing

argument,

effectively vouching for his character;
MR. BRAXTON tAPA]: And I think a lot of things he said were
very, very
says a lot about his character. He was very
open about what was going on out there. He told you they were
drinking, told you that the deceased was smoking weed, he
could have painted another picture, he didn’t do that. He
told us everything that was happening ,.. .
... The State Police tells you that the gun that they
analyzed, held five shots, one shot is missing. There was
(sic) four shots in that revolver Well, that's consistent
with a person that, and I think says a great deal about his
character, because he tells you that the deceased carried a
gun or at least he told him he carried a gun, he said it was
a 357, the round that is retrieved from his body is a
357 ... (T 07/24/12, 9, 15).
The prosecutor's argument was not merely a reasonable inference from the
evidence, it crossed the line to become a personal statement of opinion of

20

r

James's credibility, a vouching for the veracity of James's testimony to not only
dscredit the Petitioner, but to gain an upper hand in the trial and force the
Petitionsr to defend himself with proof to counter the allegedly credibly
witness, or affect the jury’s verdict. It was improper, it was error, and it
adversely affected Petitioner's right to a fair trial and due process. Hodge, 426
F. 3d at 387; Young, U.S. at 1B*
The court held in Hutchison y. Beil, 303 F,

720 ^ 750 (6th Cir. 2002)

When a petitioner makes a claim of prosecutorial misconduct,
the touchstone of due process analysis ... is the fairness of
the trial, not the culpability of the prosecutor. [R]elief is
warranted when the prosecutor's conduct was so egregious so
as to render the entire trial fundamentally unfair. In this
Circuit, whether a prosecutorial remark raises to a due
process violation depends on (1) whether the remark tended to
mislead the jury or to prejudice the accused; (2) whether the
remark was isolated of extensive; (3) whether the remark was
accidentally or deliberately placed before the jury; and (4)
the strength of the evidence against the accused, (internal
citations and quotations omitted).
First, the prosecutor's vouching for the only witness in the case was done
to mislead the jury against the questionable credibility of James's testimony,
which did not coincide with the evidence that was presented, including the
credible identification, and to prejudice the Petitioner, who's whole defense was
misidentification

made

by

James,

(2)

The

prosecutor

vouched

for

James's

credibility at least twice in his closing arguments alone. (ID 9. 14-15)- These
two persuading arguments by the prosecutor were enough to sway the jury to accept
the only witness's testimony against Petitioner, and very well may have persuaded
them to believe the witness and find Petitioner guilty, (3) It can be said that a
single misstatement is accidental, but two or more is dons with malicious intent
Hebert v. Louisiana, 272 U S

312, 316 (1929), and in this case, it was atleast

done twice during the very last things the jury would hear before going in to
deliberate on the credibility of the only witness * (4) The only evidence against
Petitioner was James's testimony that he was a shooter in the incident, which, as

21

argued supra, were made under questionable circumstances for any legitimate and
legato manner*
Therefore, the prosecutor's nefarious and malicious discrediting Petitioner
by vouching for the only witness in the case, was an extremely deciding factor
that persuaded the jury to come back with a guilty verdict, thus violating
Petitioner's U.S. Constitutional XIV Amendment rights to the Due Process Clause
by denying him a fair trial and a conviction based only on the evidence.
2

Ineffective Assistance of Trial Counsel:
A defendant accused of a crime has the right to the effective assistance of

counsel under the U S

Constitution Amendment VI; Strickland v, Washington, 466

U.S. 668 (19B4).
To prevail on an ineffective assistance of counsel claim, a defendant must
meet two criteria

He must first "show that counsel's performance was deficient

This requires showing that counsel made errors 30 serious that counsel was not
performing as the 'counsel' guaranteed the defendant by the Sixth Amendment.1' ID
at

687.

In

doing

so,

defendant mu3t

rebut a

presumption

performance was the result of sound trial strategy. ID

that

counsel's

at 690. Second, the

defendant must show the deficient performance was prejudicial.

ID at 6B7

Prejudice is established where there is a reasonable probability that, but for
counsel's error, the result of the proceeding would have been different. ID at
694.
Also, f,[t]ha label 'strategy

ia not a blanket justification for conduct

which otherwise amounts to ineffective assistance of counsel/ White v« McAninch,
235 F.3d 9BB, 995 (6th Cir
of counsel claim is to
legitimate

second guess

and reasonable

627, 655 (6th Cir

2002). “The entire point of an ineffective assistance
trial strategy, though with deference for

strategic choices/ Hodge v. Haeberlin, 579 F 3<f

2009)

22

As determined by the Sixth Circuit, failure to object to inadmissible and
prejudicial evidence does not constitute effective assistance of counsel. Combs
v. Coyle, 205 F. 3if 269 (6th Cir. 2000). Also, it has been held that failure to
object to prosecutorial misconduct, in closing arguments, constitutes ineffective
assistance of trial counsel. Hodge v. Hurley, 426 F. 3d 36B, 375-376, 383-3B5 (6th
Cir. 2005).
First, counsel’s performance was deficient when he failed to object, during
closing arguments, to the prosecutor vouching for the only witness/evidence
against Petitioner . There was no reason to not abject to the prosecutorial
misconduct when it vouched for ths credibility of the only witness/evidence
against Petitioner. This was not trial strategy, or if it was,, it was incompetent
strategy at the bare minimum. Strickland

466 U.S

at 687, 690. Second, the

failure to allow ths vouching in support of the only witness/evidence against
Petitioner created a reasonable probability that, but for counsel’s error, the
result of the trial, may have been different, where if it was brought to the
attention of the jury that the prosecution was only trying to persuade the jury,
through the prosecution’s subliminal and direct vouching, that the witness was
more credible then everything that was being presented, then the jury would have
taken a second look at what the prosecutor was trying to maliciously persuade the
jury into believing, and the jury very well may have found Petitioner not guilty,
Strickland,

466

L!.5>

at 687,

694.

The problem is,

because there was no

evidentiary hearing performed, which was against Petitioner's request, trial
counsel’s reasoning was never made a part of the record, which is why this case
needs to be remanded and an evidentiary hearing held. Wellons, 130 S. Ct. at 727.
Petitioner is innocent of the crime and the prosecutorial misconduct, of
vouching for the only uitness/evidsnce against him, and trial counsel’s failure
to point this out to the jury, denied his due process

23

thus a certificate of

]

appealability should have been granted where jurists of reason could have debated
this fact and the question is adequate to deserve encouragement to proceed
further

Barefoot, 463 US

at 493

2H

#

QUESTION IV
WAS PETITIONER DEPRIVED OF HIS CONSTITUTIONAL RIGHT TO A FAIR
AND IMPARTIAL TRIAL, WHERE THE PROSECUTOR KNOWINGLY PRESENTED
DR. FRANCISCO DIAZ TO PROVIDE AN OPINION AND CONCLUSION AS TO
THE AUTOPSY PERFORMED BY ANOTHER DOCTOR, SOMERSET, WHICH DR.
FRANCISCO DIAZ DID NOT ATTEND?
The Sixth Amendment of the United States Constitution, made applicable to
States via the Fourteenth Amendment, provides that in all criminal prosecutions,
the accused shall enjoy the right to be confronted with the witnesses against
him, meaning, the right to confront those who bear testimony against him. A
Witness’s testimony against a defendant is thus inadmissible unless the witness
appears at trial or, if the witness is unavailable, the defendant had a prior
opportunity for cross-examination. Crawford v. Washington, 541 U.S. 36, 51, 124
S

Ct. 1354, 158 L. Ed. 2d 177 (2004).
The

Court held in Crawford,

in describing the class of testimonial

statements covered by the Confrontation Clause as:
Various formulations of this core class of testimonial
statements axist: ex parte in-court testimony or its
functional equivalent—that is, material such as
affidavits, custodial examinations, prior testimony that
the defendant was unable to cross-examine, or similar
pretrial statements that declarants would reasonably
expect to be used prosecutorially; extrajudicial
statements „.. containing in formalization testimonial
materials,
statements that were made under
•»
circumstances which would lead an objective witness
reasonably to believe that the statement would be
available for use at a later trial. JEd. at 51-52
(internal quotation marks and citations omitted).
In Melendez Diaz v. Massachusetts, 557 U.S. 306, 313, 129 S, Ct. 2527, 174
L. Ed. 2d 314 (2009), this Court rejected an argument by the Respondent "that the
analysts are not subject to confrontation because they are not

accusatory1

witnesses, in that they do not directly accuse petitioner of wrongdoing; rather,
their testimony is inculpatory only when taken together with other evidence
linking petitioner to the contraband,... This finds no support in the text of the
Sixth Amendment or in our case law.*1

25

This Court went on to state:
The Sixth Amendment guarantees a defendant the right "to
be confronted with the witnesses against him." To the
extent the analysts mere witnesses, they certainly
provided testimony against petitioner, proving one fact
necessary for his conviction—that the substance he
possessed was cocaine....
In Kirby v. United States, 174 U.S. 47, 19 S. Ct. 574,
43 L. Ed. 890 (1899)', the Court considered Kirby's
conviction for receiving stolen property, the evidence
for which consisted, in part, of the records of
conviction of three individuals who were found guilty of
stealing the relevant property. Id. at 53, 19 S. Ct.
574, 43 L. Ed. 890. Though this evidence proved only
that the property was stolen, and not that Kirby
received it, the Court nevertheless ruled that admission
of the records violated Kirby's rights under the
Confrontation Clause....
Respondent claims that there is a difference, for
Confrontation
Clause
purposes,
between
testimony
recounting historical events, which is "prone to
distortion or manipulation," and the testimony at issue
here, which is the "resuft] of neutral, scientific
testing. Relatedly, respondent and the dissent argue
that confrontation of forensic analysts would be of
little value because "one would not reasonably expect a
laboratory professional ... to feel quite differently
about the results of his scientific test by laving to
look at the defendant, (internal citations omitted).
This argument is little more than an invitation to
return to our over-rules decision in Roberts, which held
that evidence with "particularized guarantees of
trustworthiness" was admissible notwithstanding the
Confrontation Clause. What we said in Crawford in
response to that argument remains true:
"To be sure, the Clause's ultimate goal is to ensure
reliability of evidence, but it is a procedural rather
than a substantive guarantee. It commands, not that
evidence be reliable, but that reliability be assessed
in a particular manner by testing in the crucible of
cross-examination ....
Dispensing with confrontation because testimony is
obviously reliable is akin to dispensing with jury trial
because a defendant is obviously guilty. This is not
what the Sixth Amendment prescribes. Id. at 317-318
(internal citations omitted)-;
When an autopsy is performed, and the examiner is aware that the decedent

26

was shot, the examination nous becomes a determination to support any criminal
judiciary events related to the shooting. Otherwise, the examiner is performing a
causa proxima-Lat: proximate cause, "most closely related cause. It is used to
indicate legal cause. That which is sufficiently related to the result as to
justify imposing liability on the actor who produces the cause, or likewise, to
relieve from liability that actor who produces a less closely related cause.**
Barron’s Law Dictionary, 5th Ed., page 70.
The prosecutor introduced the autopsy report that was performed and written
by Dr. Somerset. Tha Prosecutor did not call Dr. Somerset to testify to the facts
of the report, instead, the prosecutor called Dr. Francisco Diaz, who wa3 not
present during the autopsy.
There was never any mention, by the prosecutor, that Dr. Diaz did not
perform the autopsy, was not present during it, or had firsthand knowledge of
anything that transpired during it or the information that was written into the
report. (T 07/24/12, 59-63),
Dr. Diaz testified regarding the recovery of a bullet from the Decedent's
right lower leg,

(ID 63), and to the toxicology report that resulted in a

positive for cannabinoids. (ID 65).
The evidence at issue is based on Dr. Somerset’s subjective observations
and analytic standards that establish several critical facts necessary to prove
the offense before the jury, i.e., the recovery of the bullet and the magnitude
of the leg wound done by the gunshot on the Decedent.
This evidence was introduced through the testimony of Dr. Diaz, who had no
first-hand knowledge about

Dr.

Somerset’s observations or analysis of the

physical evidence. Petitioner’s counsel was unable, through the crucible of cross
examination, to challenge the objectivity of Dr. Somerset and the accuracy of his
observations and methodology,

for he was denied his right to confront the

27

perpetrator of the evidence, autopsy report, against him. Melendez*Diaz, 557 U.S.
at 329
The best that Dr. Diaz could do was speculate regarding Dr. Somerset's
reasoning of his findings. Petitioner's trial counsel could not question or
attack Dr. Somerset's results or the soundness of his judgment in failing to
conduct additional tests, or to follow certain procedures, for Petitioner was
denied his right to confront.
Once Dr. 5dmerset made a determination that the cause of death was by
homicide, then the doctor knew that ha was preparing a report to be brought into
a criminal court and his determination and opinion would now be evidence against
the accused by cause proxima. The purpose was to test the reliability through the
crucible of cross-examination. Melandez-Piaz, 557 U.S.

at 317. This did not

transpire.
Therefore the introduction of Dr. Somerset's autopsy report, through the
testimony of Dr. Diaz, falls squarely within the prohibited testimonial hearsay
that is reasonably to be used by the prosecutor at trial and should not have been
allowed. Crawford, 541 U.S
2705

2717

(2011),

at 59. Also see, Bullcoming v. New Mexico, 131 S. Ct.

reports memorializing the work performed by laboratory

analysis's when carrying out forensic duties are testimonial statements subject
to the requirements of the Confrontation Clause, (quoting Melendez-Diaz, 557 U.S.
at 310-311), For the testimony by Dr. Diaz, during Petitioner's trial, goes far
beyond the basis of determining the manner of death. Dr. Diaz provided testimony
as to the bullet wounds to Decedent; the entry and exit wounds of the bullets,
and how that determination wa3 made; what organs were damaged by the bullets; and
the recovery of the bullet. (ID 62-63), None of which could be brought into
question, for Dr. Diaz did not perform the autopsy but was referencing a document
perfected by another doctor, eo did not know how these determinations were made..

28

at

$

inadvertently; and
ensued,
i(internal
omitted).
As

argued

within

Claim

(3) prejudice
citations and
V,

supra,

the

must have
quotations
prosecutor

woefully

utilized Dr. Diaz's testimony to incorporate the autopsy report into
the record, all the while, failing to confirm the unavailability of
Dr. Somerset, who had personal knowledge as to the chain-of-command,
as well as, the size, and condition of the bullet(s) he retrieved
from the body of Decedent. _(IT 07/23/12, 64; Ln.'s 13-18),
Further, throughout the trial record, there is nothing that can
establish the order of the bullet wounds, i.e», the chest or the leg
first. J[|d.

62). Appellant presented that the bullet recovered

from Decedent*s right leg very well could have been the gunshot that
killed him and the gunshot to the chest was secondary.
The trial court, in its order of denial, relied solely on the
non-testifying Dr. Somerset's autopsy report for denying this claim.
By the prosecutor suppressing detailed information about the
bullet's size and weight, it deprived Appellant of a substantial
defense that the killing gunshot came from the .357 and not any gun
that the two perpetrators allegedly possessed, for the .357 was the
Decedent's gun,

found next to the identification card of James*

Further, the withholding of the weight of the bullet disallowed to
present that the wound to the leg was actually done by the .357. This
is also supported by the medical examinees report.j

Report,

pg. 's 2 and 3).
b. Conclusion:
WHEREFORE,

because jurists of reason would

find

this issue

debatable and it is a constitutional violation, Barefoot, 463 U.S* at

2^

■

QUESTION V
WAS PETITIONER DEPRIVED OF A FAIR AND IMPARTIAL TRIAL AS
GUARANTEED BY THE SIXTH AND FOURTEENTH AMENDMENTS, WHERE THE
TRIAL COULD PLACED AN EXTERNAL CONSTRAINT UPON HIS ABILITY TO
AID IN HIS OWN DEFENSE, BY ORDERING PETITIONER COMPETENT WITH
ANTI-PSYCHOTIC
MEDICATIONS
DURING
THE
TRIAL
COURT
PROCEEDINGS?
A criminal defendant has a constitutional right to a fair and impartial
trial and to assist with the defense.
The matter as to whether a defendant could be forced to take medication
during trial was resolved in Riggins v. Nevada, 504 U.S. 127 (1992), also see
Washington v.

Harper,

494 U.S.

210

(1990).

Those cases indicate that the

constitution permits the government involuntarily to administer anti-psychotic
drugs to a mentally ill defendant facing serious criminal charges in order to
render that defendant competent to stand trial; but, only if the treatment is
medically appropriate, is substantially unlikely to have side effects that may
undermine the fairness of the trial, and taking into account less intrusive
alternatives, is necessary significantly to further important governmental trialrelated interest.
Further, in 5ell v. United States, 539 U.S, 166, a trial court must find
that administration of the drugs is substantially unlikely to have side effects
that will interfere significantly with the defendant's ability to assist counsel
in conducting a trial defense, thereby rendering the trial unfair. ID. at 1B1,
(quoting Riggins, 504 U.S

at 142-145).

The trial court never conducted any type of an inquiry into the side
effects of placing Petitioner on these anti-psychotic medications and the court
showed no concern as to his ability to assist counsel while under those
medications in conducting a trial defense.
As determined in Riggins, 504 U S. at 127:
The involuntary administration of anti-psychotic drugs to the
defendant during his trial violated his rights under the

30

Sixth and Fourteenth Amendments to testify, to follow the
proceedings, and to communicate with counsel.
Petitioner did not have the ability to assist his trial counsel during the
trial due to being heavily medicated. Prope v. Missouri, 420 U.5 162, 171 (1975)
(The accused must have the ability to assist in his defense). This is why
Petitioner requested an evidentiary hearing in the state courts, which he was not
given,

to place on the record the facts that counsel did not receive any

assistance

from

Petitioner

in

the

defense

of his

trial

because

he

was

predomenately incoherent as to what was transpiring around him because of the
forced medications he was on to make him

competent to 9tand trial.

Wherefore, because Petitioner could not assist his trial counsel with his
own defense, because of the anti-psychotic medications the court ordered him
placed upon without making any determination first as to whether it would not
allow him to assist, he was denied his constitutional right to a fair trial, thus
a certificate of appealability should have been granted where jurists of reason
could

have

debated

this

fact

and

the

question

is

encouragement to proceed further. Barefoot, 463 U.5. at 493.

31

adequate

to

deserve

QUESTION IV
WAS PETITIONER DENIED HIS CONSTITUTIONAL RIGHT TO EFFECTIVE
ASSISTANCE OF COUNSEL, WHERE APPELLATE COUNSEL FAILED TO
RAISE THE INEFFECTIVENESS OF TRIAL COUNSEL?
Defendant has a Sixth Amendment right to the effective assistance of
counsel on direct appeal. Strickland, 466 U.S. at 668; Evitts v. Lucey, 496 U.S.
378, 391-400 (1984). Although appellate counsel is not required to present every
non-frivolous issue on appeal, Pones v. Barnes, 463 U.S. 745, 754 (1983), the
courts have held routinely, that Strickland mandates appellate counsel to have
sound strategic reasons for failing to raise important and obvious appellate
issues, or !ldead-bang-winners." Smith v. Murray, 477 U.S. 527. 536 (1986). Also
see, Meade v. Lavigne, 265 F.5upp.2d 849, 870 (E.D. Mich. 2003):
[A]n appellate advocate may deliver deficient performance and
prejudice a defendant by omitting a ’dead-bang winner', even
though counsel may have presented strong but unsuccessful
claims on appeal.... A 'dead-bang winner' is an issue which
was obvious from the trial record ... and must have leaped
out upon even e casual reading of {the] transcripts’ ...
[this was] deficient performance, and one which would have
resulted in a reversal on appeal, (internal citations
omitted).
In a case like Petitioner's, where it rests solely on circumstantial
evidence, the magnitude of errors necessary for a finding of prejudice will be
less than where there is greater evidence of guilt. Brown v. Smith, 551 F.3d 424
434-435 (6th Cir. 2008).
In

the

case

at

bar,

appellate

counsel

did

raise

three

claims

on

Petitioner's appeal by right. (See Questions I-III). But, with that being said,
the errors committed by trial counsel clearly impacted the verdict rendered by
the jury.

If counsel would have objected to the testimony of Dr. Diaz and

requested Dr. Somerset to testify, the actual facts of the autopsy would have
been presented to the jury. Further, within the development of Dr. Somerset's
testimony, the recovery of the bullet from the Dependent’s leg would have come
forth.

32

The errors presented herein cannot be considered to be logical or strategic
trial strategy when they denied Petitioner a fair trial and a substantial defense
and even to assist in h5.s own defense.
The failure of an appellate counsel to present a particular issue is
constitutionally ineffective only "if there is a reasonable probability that
inclusion of the issue would have changed the result of the appeal.

Howard v.

Borchard, 405 F.3d 459, 4B5 (6th Cir. 2005).
In this case,
questions 4 and 5

appellate counsel was ineffective in failing to raise
retained herein. Though the issues that were raised by

appellant counsel did have merit, the issues presented by Petitioner must be seen
as "dead-bang winners’1 for they jump out of the paperwork through a casual review
of it. Also, the issues Petitioner has presented are clear and long standing
constitutional violations that had 'a reasonable probability that inclusion of
the issue[s] would have changed the result of the appeal." ID at 4B5. The failure
of appellate counsel to present these issues was ineffective even though counsel
raised meritorious issues which were unsuccessful. Carpenter v. Mohr. 164 F.3d
938, 947 (6th Cir. 1998).
Therefore, not only does the ineffectiveness of appellate counsel overcome
the

'cause

and

prejudice"

standard,

but

they

violated

Petitioner’s

Sixth

Amendment right, thus a certificate of appealability should have been granted
where jurists of reason could have debated this fact and the question is adequate
to deserve encouragement to proceed further. Barefoot, 463 U.S. at 493.

33

CONCLUSION
Petitioner, Brent Lang, in pro se, respectfully requests that this Court
grant this petition for a writ of certiorari and any other relief that it deems
is just and proper in this case.

Respectfully Submitted,

Dated : 3 ~ 5 ~ S, 1
Brent Lang #347208
Pstitioner in pro se
Marquette Branch Prison
1960 U.S. Huy. 41 South
Marquette, Michigan 49855

DECLARATION
I, Brent Lang, swear and declares, with my signature below, that pursuant to 28
U S C. § 1746, that the forgoing information is true and correct.
Executed on:
Brent Lang
Declarant herein

3M

V

